IN THE
SUPREME COURT OF THE UNITED STATES
In re

RODNEY BERRYMAN Sr. -PETITIONER

No. 10-99004
CAPITAL CASE

VS.

D.C. No. 1:95-cv-0539-AWI
(Fresno)

ROBERT WONG, et al., -RESPONDENT(S)
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
NOTICE: TO REQUEST EXTENSION OF TIME
TO FILE REPLY BRIEF....

BRIAN R. MEANS (ARGUED), DEPUTY ATTORNEY GENERAL;
"KENNETH N. SOKOLER AND BRIAN G. SMILEY, SUPERVISING
DEPUTY ATTORNEYS GENERAL; MICHAEL P. FARRELL, SENIOR
ASSISTANT ATTORNEY GENERAL; XAVIER BECERRA, ATTORNEY
GENERAL; OFFICE OF THE ATTORNEY GENERAL, SACRAMENTO,
CALIFORNIA; FOR RESPONDENT APPELLEE."

SAOR E. STETLER ATTORNEY
OF RECORD.
RODNEY BERRYMAN Sr. filing
pro se at San Quentin
prison, California. 94974

RECEIVED
OCT 21 2020
26WERIOEFCTORCTL,Ftst!

IN THE
SUPREME COURT OF THE UNITED STATES
RODNEY BERRYMAN Sr.,

-PETITIONER

VS.

ROBERT WONG et al.,

-RESPONDENT

NOTICE: TO REQUEST EXTENSION OF TIME
TO FILE REPLY BRIEF....
Petitioner request for extension of time to file reply brief on or
before November 13, 2020, due to, counsel for respondent may take the
full 30 days to file "Brief in Opposition on October 23, 2020." In which,
it will take 5 to 7 days for petitioner to receive "a copy of the Brief
in Opposition." Which will only leave petitioner with 7 days to file a
reply brief.
It normally takes San Quentin five (5) days for a inmate to receive
his legal mail. But with COVID-19 it could take up to 7 days. It must be
noted that San Quentin prison law library have been closed over three (3)
months due to COVID-19. But a officer do go to each housing unit once a
week for any of are request and to make copies for us.
As this honorable Court may see that petitioner is under a hardship.
And petitioner have not had legal help from present counsel years. It
also must be noted that petitioner will try his best to file the reply
brief in 7 days. But may not be able due to the hardship addressed herein
above on this page.
Sincerely, Rodney Berryman Sr., Dated October 7, 2020....
aqc)47-1

Rvvirwl1221L
1

No.
IN THE
SUPREME COURT OF THE UNITED STATES
DECLARATION OF SERVICE
PROOF OF SERVICE

10-7-.),00
THAT THIS "DECLARATION OF SERVICE" IS IN COMPLIANCE WITH 28 U.S.C. ยง1746.
I, RODNEY BERRYMAN Sr., DO SWEAR OR DECLARE THAT ON THIS DATE

ALSO, I HAVE SERVED THE ENCLOSED FORM ON THE PARTIES
TO THE ABOVE PROCEEDINGS OR THAT PARTY'S COUNSEL, AND ON EVERY OTHER
PERSON REQUIRED TO BE SERVED, BY DEPOSITING AN ENVELOPE CONTAINING THE
ABOVE DOCUMENT, AND BY HANDING IT TO THE CORRECTIONAL STAFF SO TO BE
MAILED PROPERLY ADDRESSED TO EACH OF THEM, WITH FIRST CLASS POSTAGE
PREPAID OR BY DELIVERY TO A THIRD PARTY COMMERCIAL CARRIER FOR DELIVERY
WITHIN THREE (3) CALENDAR DAY.
THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
BRIAN R. MEANS DEPUTY ATTORNEY GENERAL, 1300 I STREET, SUITE 125 P.O.
BOX 844255 SACRAMENTO CA. 94244-2550., Ph. 916-324-5254
SAOR E. STETLER #194978 ATTORNEY AT LAW, P.O. BOX 2189 MILL VALLEY CA.
94942., Ph. 415-388-8924
I, RODNEY BERRYMAN Sr. DECLARE UNDER PENALTY OF PERJURY THAT THE
FOREGOING IS TRUE AND CORRECT.
EXECUTED ON I O^ 7--D.Oa0
WentrIV 1112-MAir,641

2

